TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Inaccurate and Incomplete Data Have
                   Adversely Affected Implementation of the
                         Taxpayer Assistance Center
                             Geographic Footprint



                                           May 16, 2008

                              Reference Number: 2008-40-118




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 16, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Inaccurate and Incomplete Data Have Adversely
                             Affected Implementation of the Taxpayer Assistance Center
                             Geographic Footprint (Audit #200740042)

 This report presents the results of our review to assess the accuracy and completeness of the data
 compiled for use in the Internal Revenue Services’ (IRS) Taxpayer Assistance Center (hereafter
 referred to as a TAC or Center) assessment process. This audit was conducted as part of the
 Treasury Inspector General for Tax Administration Office of Audit Fiscal Year 2008 Annual
 Audit Plan.

 Impact on the Taxpayer
 Since Fiscal Year 2003, we have reported on the IRS’ inability to compile and maintain accurate
 and complete management information to oversee and measure the effectiveness of its TAC
 Program. Key management information used to make decisions and support Program changes
 continues to be either absent or based on inaccurate/incomplete data. This hinders the IRS’
 ability to make appropriate decisions when determining TAC locations and the services they
 provide taxpayers seeking face-to-face assistance and has delayed the IRS in making any
 decisions on the TAC Geographic Footprint, which is an important initiative within the Taxpayer
 Assistance Blueprint (Blueprint).

 Synopsis
 The IRS suggests taxpayers visit the Centers when they have complex tax issues, need to resolve
 tax problems relating to their tax accounts, have questions about how the tax law applies to their
 individual income tax returns, or feel more comfortable talking with someone in person. In
 May 2005, the IRS announced plans to close 68 Centers nationwide. In response to this
                       Inaccurate and Incomplete Data Have Adversely Affected
                          Implementation of the Taxpayer Assistance Center
                                        Geographic Footprint


announcement, Congress proposed language to be included in the Department of the Treasury
                             Appropriations Act, 2006,1 that would delay the closing of any
                             Centers. In addition to requiring the Treasury Inspector General
  Congress directed the IRS  for Tax Administration to review the accuracy of the estimated
         to perform a        cost savings of the reduced taxpayer services, Senate Committee
   comprehensive review of   Report 109-1092 directed the IRS to do a comprehensive review
    its current portfolio of of its current portfolio of taxpayer services and to develop a
    taxpayer services and
    develop a 5-year plan.   5-year plan that outlines the services it should provide to
                             improve services for taxpayers.
To fulfill the Congressional mandate, the IRS formed a team to create the Blueprint in a
two-phase process. The Blueprint Phase 1 report issued in April 2006 identified strategic
improvement themes by researching IRS services relative to taxpayers’ needs and preferences.
The Blueprint Phase 2 report issued in April 2007 devoted an entire section to the TACs. It
provides a step-by-step process for future decisions regarding Center locations, called the
TAC Geographic Footprint.
Inaccurate and incomplete management information continues to delay implementation of the
TAC Geographic Footprint. The IRS cannot measure the effectiveness of the TAC Program
without accurate and complete data. Since Fiscal Year 2003, the IRS has assigned responsibility
for developing accurate TAC Program data to different executives and executive-led teams, with
limited success. The Blueprint established 26 taxpayer and Federal Government criteria for use
in making future decisions regarding Center locations. The IRS eliminated 6 of the 26 criteria
and added 21, for a total of 41 criteria.
We tested data in 33 of the 41 criteria. We did not test                   Nineteen (46 percent) of the
data in eight criteria because the IRS had already                       41 criteria contained inaccurate
determined that these criteria contained inaccuracies.                    or incomplete data. The IRS
Our tests determined that 11 additional criteria contained                 identified 8 criteria, and we
                                                                             identified an additional
inaccurate or incomplete data–for a total of                                11 criteria that contained
19 (46 percent) of 41 criteria with inaccurate or                        inaccurate or incomplete data.
incomplete data.




1
  H.R. 3058, Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia,
and Independent Agencies Appropriations Act, 2006.
2
  Senate Report 109-109 - Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of
Columbia, and Independent Agencies Appropriations Act, 2006.
                                                                                                                    2
                        Inaccurate and Incomplete Data Have Adversely Affected
                           Implementation of the Taxpayer Assistance Center
                                         Geographic Footprint


For the most part, the eight criteria the IRS identified as containing inaccurate data involve the
Field Assistance Office’s3 management information systems and how the IRS tracks Center
activity and employee workload. The 11 data criteria we identified as inaccurate related to TAC
real estate and employee costs. For example, the IRS inaccurately calculated rent costs, square
footage, and the number of TAC employees currently on the payroll. We reported these same
errors in Fiscal Year 2005, noting that this is typical information that any function should have
readily available to operate effectively.4
Although the Field Assistance Office has implemented two new systems to capture and process
employee time and customer data, these systems still do not capture budget and/or operating
costs by Center, including rent, personnel, and overhead. Attempts to capture these data have
been unsuccessful. Without these data, the IRS cannot 1) accurately determine costs associated
with the Centers, 2) determine the cost effectiveness or return on investment5 for the
TAC Program, or 3) make any decisions on which Centers to close.
In addition, the optimum locations for the Centers and which taxpayers they most effectively
serve have not been determined. The Blueprint represents the first large-scale effort to attempt to
                                         collect data specific to TAC customers. However, as the
                                         IRS recognizes, the survey results do not clearly
   The IRS has not yet determined        distinguish between TAC users and non-TAC users to
     which taxpayers it can most         enable it to effectively draw conclusions about the
       effectively serve with its        characteristics of individuals who use TAC services.
            TAC Program.                 The IRS plans to continue to conduct surveys in Fiscal
                                         Year 2008. It must continue to develop data about
which customers are best served by the TAC Program to develop and deliver an effective
customer service strategy.
Finally, the IRS is unable to measure how closing Centers might affect taxpayers and
compliance. In March 2006, we reported that the IRS could not determine the effect Center
closures might have on taxpayer compliance. The IRS did not have the means to capture all
interactions between a TAC employee and a taxpayer to determine why the taxpayer visited a
Center, what service he or she received, and– most importantly–the effect the service or action
has on the taxpayer’s future compliance. The IRS is not planning to conduct specific projects
that assess the impact on compliance when closing Centers. However, research projects are
planned for Fiscal Years 2008 and 2009 to determine the impact taxpayer service has on



3
  The Field Assistance Office is responsible for the TAC Program.
4
  The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005).
5
  The net profit or loss in an accounting period divided by the capital investment used during the period, usually
expressed as an annual percentage return.
                                                                                                                     3
                    Inaccurate and Incomplete Data Have Adversely Affected
                       Implementation of the Taxpayer Assistance Center
                                     Geographic Footprint


compliance, including the services provided at a Center. Therefore, we are making no
recommendations regarding this issue.
We have made prior recommendations concerning the Field Assistance Office’s management
information systems and the problems with inaccurate and unreliable data. The IRS agreed to
these recommendations and has been working on corrective actions (particularly with the
research efforts related to the Blueprint) and developing a new Field Assistance Office
management information system. Because many of the concerns we identified in prior audits
remain, we are making the same recommendations in this report.

Recommendations
We recommended that the Commissioner, Wage and Investment Division, should 1) improve the
management information system to capture the number of taxpayers served, the numbers and
types of services provided, and the related resources (costs); 2) develop and implement an
internal control system to ensure management information data are accurate and reliable; and
3) develop a process that includes routine assessments of TAC operations to ensure that the
TACs are optimally located and the services provided at the TACs are the most effective and
cost efficient.

Response
IRS management agreed with two of our three recommendations and partially agreed with one
recommendation. They will continue to capture data they are currently collecting because the
data are sufficient to identify taxpayers’ needs and the services provided. They do not agree to
capture detailed information regarding each individual service because it is cost and resource
prohibitive. The IRS will validate and certify the accuracy of information provided for all real
estate data elements. Updated information for real estate data elements will be provided to the
Wage and Investment Division in May 2008. The TAC space assignment information will be
provided subsequent to the ongoing TAC space validation process targeted for completion in
July 2008. Because the real estate information provided in support of the TAC Geographic
Footprint is not static, it will be kept updated on a quarterly basis beginning in the fourth quarter
of Fiscal Year 2008. Finally, the Field Assistance Office will use the process developed by the
Geographic Coverage Initiative to create a balanced footprint designed to maximize taxpayer
needs and services provided. Management’s complete response to the draft report is included as
Appendix VI.




                                                                                                    4
                       Inaccurate and Incomplete Data Have Adversely Affected
                          Implementation of the Taxpayer Assistance Center
                                        Geographic Footprint



Office of Audit Comment
The IRS disagreed that it is unable to identify which taxpayers are most effectively served in the
TACs. However, to date, much of the IRS’ understanding of taxpayer needs, preferences, and
behaviors is based on results of taxpayer responses to four surveys6 reported in the Blueprint
Phase 2 report. As the IRS recognizes, the survey results do not clearly distinguish between
TAC users and non-TAC users to enable it to effectively draw conclusions about the
characteristics of individuals who use the services of a Center. The IRS plans to continue to
conduct surveys in Fiscal Year 2008.
In its overall discussion of the report, the IRS also stated that it believed this audit to be
premature, because IRS personnel had expressed concerns regarding the accuracy of the data
elements used to populate the Evaluative Model. We do not agree. Over the last 4 years, we
have reported on the IRS’ inability to compile and maintain accurate and complete management
information to oversee and measure the effectiveness of its TAC Program. In response, the IRS
has developed and implemented three different models in which to capture data to make
decisions and support TAC Program changes. The third and current model, the Geographic
Coverage Initiative, incorporates the Geographic Coverage Rate Model, and in fact incorporates
many of the recommendations made in this and prior Treasury Inspector General for Tax
Administration reports, including how to ensure the data are kept accurate and current.
Finally, although the IRS did not agree to capture detailed information regarding each individual
service taxpayers receive at the TACs because it is cost and resource prohibitive, it stated that
information from the Contact Recording System,7 along with the Field Assistance Management
Information System and Business Objects,8 will be sufficient to capture taxpayer needs and
services provided. We believe these systems together might provide sufficient information, and
we will conduct followup testing during our planned Fiscal Year 2008 audit of the Field
Assistance Management Information System.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




6
  The Taxpayer Customer Service and Channel Preference Survey, the Taxpayer Assistance Blueprint Conjoint II
Study, the Opinion Survey of Taxpayer Resources and Services, and the 2006 Wage and Investment Division
Market Segment Survey, which were all conducted during Calendar Year 2006.
7
  The Contact Recording System captures the audio portion of the employee/customer interaction. It is synchronized
with computer screen activity for replay and quality review.
8
  Business Objects software provides the IRS the capability to identify total contacts, wait time, and employee time
utilization.
                                                                                                                  5
                           Inaccurate and Incomplete Data Have Adversely Affected
                              Implementation of the Taxpayer Assistance Center
                                            Geographic Footprint




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Inaccurate and Incomplete Management Information
          Continues to Delay Implementation of the Taxpayer Assistance
          Center Geographic Footprint ........................................................................Page 3
                    Recommendation 1:........................................................Page 8

                    Recommendation 2:........................................................Page 9

          The Optimum Locations for the Taxpayer Assistance Centers and
          Which Taxpayers They Most Effectively Serve Have Not Been
          Determined....................................................................................................Page 9
                    Recommendation 3:........................................................Page 13

          The Internal Revenue Service Is Unable to Measure How Closing
          Taxpayer Assistance Centers Might Affect Taxpayers and Compliance .....Page 14

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Treasury Inspector General for Tax Administration
          Audit Reports ................................................................................................Page 19
          Appendix V – Taxpayer and Federal Government Taxpayer Assistance
          Center Evaluation Criteria ............................................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 24
        Inaccurate and Incomplete Data Have Adversely Affected
           Implementation of the Taxpayer Assistance Center
                         Geographic Footprint




                    Abbreviations

IRS           Internal Revenue Service
TAC           Taxpayer Assistance Center
TIGTA         Treasury Inspector General for Tax Administration
                       Inaccurate and Incomplete Data Have Adversely Affected
                          Implementation of the Taxpayer Assistance Center
                                        Geographic Footprint




                                            Background

The Internal Revenue Service (IRS) provides taxpayers with the option of obtaining personal,
face-to-face tax assistance at 401 Taxpayer Assistance Centers (hereafter referred to as a TAC or
Center) nationwide. The IRS suggests taxpayers visit the Centers when they have complex tax
issues, need to resolve tax problems relating to their tax accounts, have questions about how the
tax law applies to their individual income tax returns, or feel more comfortable talking with
someone in person.
In May 2005, the IRS announced plans to close 68 TACs nationwide. In response to this
announcement, Congress proposed language to be included in the Department of the Treasury
Appropriations Act, 2006,1 that would delay the closing of any Centers. The Committee on
Appropriations stated in the Senate Report:
        . . . Due to the Committee’s concerns, the Committee has included an
        administrative provision that prohibits the use of funds provided in this Act for
        purposes of reducing any taxpayer service function or program until the Treasury
        Inspector General for Tax Administration [TIGTA] has completed a study
        detailing the impact of the IRS’ plans to reduce services on taxpayer compliance
        and taxpayer assistance. The Committee also requests [the] TIGTA to review the
        accuracy of the estimated cost-savings [sic] of the reduced services.2
Subsequently, a law was passed3 delaying the closure of any TACs.
The Taxpayer Assistance Blueprint and the TAC Geographic Footprint
In addition to requiring us to review the accuracy of the estimated cost savings of the reduced
taxpayer services, Senate Committee Report 109-109 directed the IRS to do a comprehensive
review of its current portfolio of taxpayer services and to develop a 5-year plan that outlines the
services it should provide to improve services for taxpayers.
To fulfill the Congressional mandate, the IRS formed a team to create the Taxpayer Assistance
Blueprint (Blueprint). To satisfy the report submission date of April 14, 2006, the IRS designed
the Blueprint to be completed in a two-phase process. The Blueprint Phase 1 report issued in



1
  H.R. 3058, Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia,
and Independent Agencies Appropriations Act, 2006.
2
  Senate Report 109-109 - Transportation, Treasury, Housing and Urban Development, the Judiciary,
the District of Columbia, and Independent Agencies Appropriations Act, 2006.
3
  Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, 2006, Pub. L. No. 109-115, 119 Stat. 2396 (2005).
                                                                                                         Page 1
                         Inaccurate and Incomplete Data Have Adversely Affected
                            Implementation of the Taxpayer Assistance Center
                                          Geographic Footprint


April 2006 identified strategic improvement themes by researching IRS services relative to
taxpayers’ needs and preferences.
The Blueprint Phase 2 report was issued April 2007. It devoted an entire section to the TACs,
stating that unique challenges are presented by each TAC’s operating environment. Therefore,
the IRS conducted an analysis separate from the rest of the Blueprint Service Improvement
Portfolio. The Blueprint Phase 2 report provided a step-by-step process for future decisions
regarding Center locations, called the TAC Geographic Footprint. The Blueprint Phase 2 report
stated the TAC evaluative process was to involve three phases, as outlined in Figure 1.
                  Figure 1: The Three Phases of the TAC Evaluative Process
     Phase 1 – Categorize each TAC to identify those facing staffing and real estate activities in the near
     term, as well as those currently providing low or redundant population coverage. Identify those TACs
     in these categories and evaluate them based on the 26 taxpayer and Federal Government value
     criteria. Create a list of any recommended closures of the TACs deemed appropriate after full
     consideration of the applied criteria.

     Phase 2 – Bring recommended closures to the IRS Services Committee4 some time after the end of
     the filing season5 in Calendar Year 2007. Manage implementation of approved recommendations to
     minimize negative impact on taxpayers, employees, partners, and filing season operations. This
     process is expected to last into Calendar Year 2008.

     Phase 3 – Continue evaluation of all remaining TACs in terms of all taxpayer and Federal
     Government value criteria and consideration of business rules. Submit additional recommended
     closures to the IRS Services Committee. Throughout the process, consider whether the evaluative
     criteria and process require modification based on lessons learned during Phases 1 and 2.
    Source: The 2007 Blueprint Phase 2 report.

This review was performed at the Field Assistance Office, Taxpayer Services Program
Management Office, and the Strategy and Finance Research offices in the Wage and Investment
Division in Atlanta, Georgia. The review was also performed at the Office of Program
Evaluation and Risk Analysis and the Agency-Wide Shared Services Real Estate and Facilities
Management function located in Arlington, Virginia, during the period July 2007 through
February 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.

4
  The IRS Commissioner chartered the Services Committee as the governance body for IRS service investment
decisions. The committee is responsible for overseeing, prioritizing, and approving an integrated portfolio of IRS
services.
5
  The period from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 2
                           Inaccurate and Incomplete Data Have Adversely Affected
                              Implementation of the Taxpayer Assistance Center
                                            Geographic Footprint




                                          Results of Review

Inaccurate and Incomplete Management Information Continues to
Delay Implementation of the Taxpayer Assistance Center Geographic
Footprint
Since Fiscal Year 2003, we have reported on the IRS’ inability to compile and maintain accurate
and complete management information to oversee and measure the effectiveness of its TAC
Program. Key management information used to make decisions and support Program changes is
either absent or based on inaccurate and/or incomplete data, including how the IRS tracks TAC
activity, employee workload, TAC real estate, and employee cost. This hinders the IRS’ ability
to make appropriate decisions when determining Center locations and the services they provide
taxpayers seeking face-to-face assistance and has delayed the IRS in making any decisions on the
TAC Geographic Footprint, which is an important initiative within the Blueprint. Compiling and
maintaining accurate management information is essential because 119 (30 percent) of the
401 TAC leases expire in Fiscal Years 2008 and 2009, providing the IRS an opportunity to
determine if the current locations are the most optimal and/or identify better locations for the
119 Centers.
Additionally, the IRS cannot measure the effectiveness of the TAC Program without accurate
and complete data. As a result, it has no assurance that the Fiscal Year 2007 budgetary
expenditures–in excess of $157 million–were used effectively or that budgets in the future will
be effectively spent. Fiscal Year 2007 budgetary expenses included more than $132 million for
employees working in the Centers and more than $10 million for management oversight of the
TAC Program. Management oversight included 4 directors, 180 managers (32 in Headquarters
and Area Offices and 148 in the TACs), and 76 national analysts, field analysts, and technical
advisors. An Area Office is a geographic organizational level used by IRS business units and
offices to help their specific types of taxpayers understand and comply with tax laws and issues.

Data inaccuracies and inconsistencies have been reported since
Fiscal Year 2003
Since Fiscal Year 2003, the IRS has assigned responsibility for developing accurate TAC
Program data to different executives and executive-led teams, with limited success. Figure 2
provides a timeline of findings from prior TIGTA reports relating to concerns about the TAC
Program’s management information and related events and actions.6


6
    See Appendix IV for a list of the audit reports referred to in Figure 2.
                                                                                           Page 3
                        Inaccurate and Incomplete Data Have Adversely Affected
                           Implementation of the Taxpayer Assistance Center
                                         Geographic Footprint




      Figure 2: Timeline of Prior TIGTA Reports and Related Events and Actions
               We report that the IRS’ estimation of the number of taxpayers who visit the Centers could
               be substantially understated due to inconsistencies in tracking visits, use of multiple tracking
               systems, and a manual process of inputting visits to a management information system.
 August
               The IRS responds that it plans to install at each of its Centers an automated tracking
  2003
               system that will allow it to more accurately track taxpayer visits by providing a networked
               system that captures data on customer volumes and the types of service requested by
               taxpayers.

May 2005       The IRS announces plans to close 68 TACs.

               Congress reacts to the report of the IRS’ decision to close 68 TACs and proposes to delay
June 2005      the closings until we have completed a study of how the IRS’ plans to reduce services will
               affect taxpayer compliance and taxpayer assistance.
               We complete an audit of the TAC Program service delivery and report that key
               management information used to make decisions and support changes for TACs is either
               absent or based on incomplete data. The IRS agrees that improving its management
July 2005      information system is critical and plans to develop a web-based management information
               system that will provide critical program planning and control information at the local and
               national levels.
               The IRS halts plans to close any Centers.
               We complete an audit on taxpayer services and report that the IRS has conducted only
               limited research on the impact of customer service on taxpayer compliance.
February       The IRS agrees that further study is warranted regarding the impact on taxpayer
  2006         compliance of any reduction in services and states it is awaiting the results of both the
               Blueprint and our audit of the TAC Closure Model (this Model was used to identify which
               Centers to close).
               We complete an audit of the TAC Closure Model, report inaccuracies and inconsistencies in
               the data used to populate the Model, and raise concerns about using the results to select
  March        which Centers to close and determining the associated cost savings that may be achieved.
  2006         The IRS agrees data reliability is an issue that must be addressed, stating it will ensure that
               data used in any decision-making tool as they relate to the TAC Program are accurate and
               verified.
April 2006     The IRS issues the Blueprint Phase 1 report.

April 2007     The IRS issues the Blueprint Phase 2 report.
               The IRS forms a Validation Team to validate the accuracy of the data gathered on the
               TAC Program by the Blueprint team. A decision is made to scrap the TAC Closure Model
May 2007
               and to continue to build a new model (the TAC Evaluative Model) to make decisions
               regarding the TAC Program.
Source: TIGTA audit reports, Blueprint Phase 1 and 2 reports, Congressional action, and interviews with IRS
employees.

                                                                                                          Page 4
                         Inaccurate and Incomplete Data Have Adversely Affected
                            Implementation of the Taxpayer Assistance Center
                                          Geographic Footprint


Data used to populate the current Evaluative Model are either inaccurate or
incomplete
The current Evaluative Model was built as part of the Blueprint initiative to develop a service
delivery plan and establish a Geographic Footprint for the TAC Program. The Blueprint
established 26 taxpayer and Federal Government criteria for use in making future decisions
regarding Center locations. The Validation Team eliminated 6 of the 26 criteria and added
21, for a total of 41 criteria.7
In June 2007, we met with representatives from the Validation Team who stated they were
conducting a comprehensive validation of the data included in the Evaluative Model. The goal
was to ensure that all data were fully validated so the Evaluative Model and the Geographic
Footprint could be used to make decisions as to which Centers to close.
In September 2007, IRS management advised us that the Validation Team had raised concerns
about the accuracy of the data used to populate the Evaluative Model. Specifically, the
Validation Team indicated that eight criteria contained inaccurate data. As a result, the
Validation Team stopped all work on the Evaluative Model, and the IRS transferred
responsibility for compiling and validating data to the Field Assistance Office, which is
responsible for oversight of the TAC Program. Additionally, the Validation Team was unable to
develop a process to keep the data accurate and current.
Our review consisted of testing data in 33 of the 41 criteria included in the Evaluative Model.
We did not test data in eight criteria because the IRS had already determined that these criteria
contained inaccuracies. Our tests determined that 11 additional criteria contained inaccurate or
incomplete data, for a total of 19 (46 percent) of 41 criteria with inaccurate or incomplete data.
The Government Accountability Office Standards for Internal Control in the Federal
Government8 require information to be recorded and communicated to management and others
within the entity who need it and in a form and within a time period that enables them to carry
out their internal control responsibilities. For an entity to run and control its operations, it must
have relevant, reliable, and timely communications relating to internal as well as external events.
Criteria contained inaccuracies involving TAC Program taxpayer activity and employee
workload
For the most part, the eight criteria the IRS identified as containing inaccurate data involve the
Field Assistance Office’s management information systems and how the IRS tracks TAC activity
and employee workload. For example:




7
    See Appendix V for a list of the 41 criteria.
8
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                              Page 5
                        Inaccurate and Incomplete Data Have Adversely Affected
                           Implementation of the Taxpayer Assistance Center
                                         Geographic Footprint


    •    Number of taxpayers who visit the Centers.9
    •    Number of services available through other IRS channels.10
We previously reported11 that Field Assistance Office systems do not accurately track activity
and do not capture all TAC services. This Office also was using four separate systems to obtain
management information on taxpayer contacts and employee workload–most of which were
paper-based, labor-intensive, manual systems. The IRS acknowledged that prior Field
Assistance Office management information systems could not be relied on for timely, accurate
workload performance information due to the manual process of recording taxpayer visits.
In Fiscal Year 2002, the Field Assistance Office began installing the Q-MATIC in the Centers.
                     It is an automated queuing system used to control the flow of taxpayers
                     waiting for assistance. In most Centers, the Q-MATIC automatically
                     records the number of taxpayers assisted. Additionally, in Fiscal Year 2007,
                     the Field Assistance Office implemented the Field Assistance Management
                     Information System to replace the older manual reporting system. The Field
                     Assistance Management Information System is a web-based system that
captures and processes employee time-reporting information and customer data. It automatically
imports data from the Q-MATIC (e.g., tax issues and time spent in service), then associates the
data with the login of the technical employee who provided the service.
In Fiscal Year 2007, Field Assistance Office
employees were told to track all assistance they             The current tracking system is
provided to customers in the Centers by using more            able to capture only the most
than one code per taxpayer if they helped a taxpayer         significant service provided to
with multiple services during one contact. However,                   each taxpayer.
problems arose, and the Field Assistance Office is
again able to capture only the most significant service provided to each taxpayer. When multiple
services are provided to the same taxpayer, guidelines direct TAC employees to record the
service they believe was the most significant. This is usually based on the amount of time the
employee spent assisting the taxpayer with a specific service. The IRS version of the Q-MATIC
was not designed to track delivery of multiple services.
The IRS advised us that, before it attempts to record and track delivery of multiple services, it is
trying to focus on ensuring that the number of taxpayer contacts recorded is correct because this


9
  Criteria: Total volume per Business Performance Management System, Total volume per Q-Matic, and Total
filing season volume per Business Performance Management System.
10
   Criteria: Total contacts potentially deliverable via IRS.gov, Percentage of total volume potentially deliverable via
IRS.gov, and Potential IRS.gov contacts per technical Full-Time Equivalent.
11
   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005).

                                                                                                               Page 6
                         Inaccurate and Incomplete Data Have Adversely Affected
                            Implementation of the Taxpayer Assistance Center
                                          Geographic Footprint


too has been an ongoing problem. The Field Assistance Office is exploring the possibility of
using the Contact Recording System12 to determine the number of different services the Centers
provide. Until the IRS can accurately track all TAC services, it cannot accurately identify all
TAC activity and determine employee workload–both of which are critical to the Evaluative
Model.
Criteria contained inaccuracies involving the costs of resources

     Criteria containing inaccurate data:                 For the most part, the 11 criteria we identified as
     1. Problem return coverage rate.                     having inaccurate data related to TAC real estate
     2. Original count of Tax Year 2004 problem           and employee costs. For example, the IRS
          tax returns.                                    inaccurately calculated rent costs, square footage,
     3. Change in Tax Year 2004 problem tax               and the number of TAC employees currently on
          return coverage rate if eliminating a TAC.      the payroll. We reported these same errors in
     4. Reduction in problem tax return coverage          Fiscal Year 2005, noting that this is typical
          rate for Processing Year 2006* as a             information that any function should have readily
          percentage of the target population if          available to operate effectively.13
          eliminating a TAC.
     5. TAC square feet.                      Although the Field Assistance Office has
     6. TAC rent.                             implemented the Q-MATIC and the Field
     7. Rentable/usable factor.               Assistance Management Information System to
                                              capture and process employee time-reporting
     8. Allocated technical Full-Time Equivalents
                                              information and customer data, these systems
          (the number of hours worked divided by
          the maximum number of compensable   still do not capture budget and/or operating costs
          hours in a work year).              by Center, including rent, personnel, and
     9. On rolls.                             overhead. IRS attempts to capture these data to
     10. Other employees.                     populate the Evaluative Model were
     11. Modernization efforts applied.       unsuccessful. Without these data, the IRS cannot
     * The year in which tax returns and other tax data
                                              1) accurately determine costs associated with the
     are processed.                           Centers, 2) determine the cost effectiveness or
return on investment14 for the TAC Program, or 3) make any decisions on which Centers to close.
Field Assistance Office officials stated they have a comprehensive communication strategy that
has set clear expectations regarding the Office’s management information systems and how data
are to be captured by the Centers. They advised us they have also issued formal guidance
through official memoranda on the importance of capturing accurate information though the new
Field Assistance Management Information System. Further, all Field Assistance Office

12
   The Contact Recording System captures the audio portion of the employee/customer interaction. It is
synchronized with computer screen activity for replay and quality review.
13
   See Appendix V for detailed definitions of each of the criteria.
14
   The net profit or loss in an accounting period divided by the capital investment used during the period, usually
expressed as an annual percentage return.
                                                                                                               Page 7
                    Inaccurate and Incomplete Data Have Adversely Affected
                       Implementation of the Taxpayer Assistance Center
                                     Geographic Footprint



managerial and executive performance plans include specific actions and expectations relative to
data validation. Officials explained that specific actions include ongoing analysis and formal
documented operations reviews to ensure accuracy of data related to customer interactions.
Prior recommendations
Our prior recommendations concerning the Field Assistance Office’s management information
systems and the problems with inaccurate and unreliable data included 1) developing and
implementing an information system that is based on reliable and accurate data and 2) capturing
the number of taxpayers served, the numbers and types of services provided, and the related
resources (costs). We also recommended the IRS develop a process that includes routine
assessments of TAC operations to ensure that the Centers are optimally located and the services
provided at the Centers are the most effective and cost efficient. Finally, the IRS should ensure
that data used in any decision-making tool are accurate, reliable, and validated before using the
data to make decisions regarding the TAC Program.
The IRS agreed to all of the recommendations previously discussed and has been working on
corrective actions (particularly with the research efforts related to the Blueprint) and developing
a new Field Assistance Office management information system. Because many of the concerns
we identified in prior audits remain, we are making the same recommendations.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Improve the management information system to capture the number of
taxpayers served, the numbers and types of services provided, and the related resources (costs).
       Management’s Response: IRS management partially agreed with this
       recommendation. They will continue to capture data they are currently collecting
       because the data are sufficient to identify taxpayers’ needs and the services provided.
       They do not agree to capture detailed information regarding each individual service
       because it is cost and resource prohibitive. This recommendation would require a new,
       more robust tracking system to replace their current traffic management system.
       Aggressive actions have been taken to improve the Field Assistance Office’s
       management information systems to capture relevant data. They have engaged in a
       multi-tiered effort to review and validate data since the startup of the Field Assistance
       Management Information System in October 2007, which includes operational reviews
       and analysis of data. The Field Assistance Office captures taxpayers served and
       implemented management processes to ensure accuracy in the data through
       communication efforts, operational review processes, refinement of the data elements,
       and validation of data. The Real Estate and Facilities Management Office will validate
       the related resource costs of TAC operations.

                                                                                             Page 8
                       Inaccurate and Incomplete Data Have Adversely Affected
                          Implementation of the Taxpayer Assistance Center
                                        Geographic Footprint


         Office of Audit Comment: Although the IRS did not agree to capture detailed
         information regarding each individual service taxpayers receive at the TACs because it is
         cost and resource prohibitive, it stated that information from the Contact Recording
         System, along with the Field Assistance Management Information System and Business
         Objects,15 will be sufficient to capture taxpayer needs and services provided. We believe
         these systems together might provide sufficient information, and we will conduct
         followup testing during our planned Fiscal Year 2008 audit of the Field Assistance
         Management Information System.
Recommendation 2: Develop and implement an internal control system to ensure that
management information data are accurate, reliable, and validated before using the data to make
decisions regarding the TAC Program. This system should include a process to keep the data
accurate and current.
         Management’s Response: IRS management agreed with this recommendation. The
         Real Estate and Facilities Management Office will validate and certify the accuracy of
         information provided for all of its data elements. Updated information for the data
         elements will be provided to the Wage and Investment Division in May 2008. The TAC
         space assignment information will be provided subsequent to the ongoing TAC space
         validation process targeted for completion in July 2008. Because the Real Estate and
         Facilities Management Office information provided in support of the TAC Geographic
         Footprint is not static, the Office will provide continuous validated information for all
         data points on a quarterly basis beginning in the fourth quarter of Fiscal Year 2008. To
         ensure accurate and current data, the Field Assistance Office reviews and validates TAC
         data weekly by utilizing the Field Assistance Management Information System.

The Optimum Locations for the Taxpayer Assistance Centers and
Which Taxpayers They Most Effectively Serve Have Not Been
Determined
Although the IRS has begun extensive research to identify taxpayers who have visited the
Centers and who desire or need the face-to-face services provided by them, Field Assistance
Office management has not yet determined which taxpayers the IRS can most effectively serve
by its TAC Program. Without this, they cannot determine where to locate the Centers.




15
  Business Objects software provides the IRS the capability to identify total contacts, wait time, and employee time
utilization.
                                                                                                            Page 9
                      Inaccurate and Incomplete Data Have Adversely Affected
                         Implementation of the Taxpayer Assistance Center
                                       Geographic Footprint


The IRS has yet to identify which taxpayers are most effectively served by the
TAC Program
To date, much of the IRS’ understanding of taxpayer needs, preferences, and behaviors is based
on results of taxpayer responses to four surveys16 reported in the Blueprint Phase 2 report.
However, our review of the results of 1) the four surveys in the Blueprint report and 2) an
additional survey–the Taxpayer Advocacy Panel survey17–showed that characteristics of
taxpayers who use the services of a TAC varied among the five surveys. Figure 3 presents some
of the varied taxpayer characteristics identified during our 1) review of the statements in the
Blueprint Phase 2 report 2) review of the Taxpayer Customer Service and Channel Preference
Survey 3) review of the Taxpayer Advocacy Panel Survey and 4) tests to determine the
demographics of the approximately 1.6 million taxpayers who visited Centers for account
assistance in Calendar Years 2004 and 2007.
                     Figure 3: Comparison of Taxpayer Characteristics

              Source                           Income             Language                Age

                                           Low-income          Limited-English-    Elderly taxpayers
                                           taxpayers tend      proficient          tend to use TACs
                                           to use TACs at      taxpayers tend      at a greater rate
       Blueprint Phase 2                   a greater rate      to use TACs at      than the
       Report                              than the            a greater rate      population at
                                           population at       than the            large.
                                           large.              population at
                                                               large.
                                           TAC user            90% of TAC          81% of TAC user
                                           respondents         user                respondents
       Taxpayer Customer Service
                                           had a mean          respondents         were under age
       and Channel Preference
                                           income of           listed English as   65.
       Survey
                                           $44,200.            their primary
                                                               language.
                                           56% of TAC          72% of TAC          85% of TAC user
                                           user                user                respondents
       Taxpayer Advocacy                   respondents         respondents         were under age
       Panel Survey                        had income of       listed English as   65.
                                           less than           their primary
                                           $35,000.            language.



16
   The Taxpayer Customer Service and Channel Preference Survey, the Taxpayer Assistance Blueprint Conjoint II
Study, the Opinion Survey of Taxpayer Resources and Services, and the 2006 Wage and Investment Division
Market Segment Survey, which were all conducted during Calendar Year 2006.
17
   The Taxpayer Advocacy Panel Survey was conducted in February, March, and May 2007. Thirty offices were
visited, and more than 1,100 taxpayers responded to the survey.
                                                                                                       Page 10
                       Inaccurate and Incomplete Data Have Adversely Affected
                          Implementation of the Taxpayer Assistance Center
                                        Geographic Footprint



               Source                           Income             Language                  Age

                                            The average                              The average age
       TIGTA Analysis                       income of                                of taxpayers was
                             Calendar
       of Taxpayers                         taxpayers was                            47, and 87%
                             Year 2004
       Who Visited                          $50,983.                                 were under age
                                                                                     65.
                                            The average                              The average age
       TACs for                             income of                                of taxpayers was
                             Calendar
       Account                              taxpayers was                            45, and 90%
                             Year 2007
       Assistance                           $56,211.                                 were under age
                                                                                     65.
      Source: The 2007 Blueprint Phase 2 report, Taxpayer Customer Service and Channel
      Preference Survey results, Taxpayer Advocacy Panel Survey results, and our analysis.

In March 2006, we reported the results of tests to determine the accuracy of the data in the TAC
Closure Model, stating the IRS has available for its use taxpayer account data that could be used
to better identify the characteristics of customers who have sought or may seek account
assistance at a Center.18 However, the IRS did not include these data when developing the
Blueprint Phase 2 report.
Instead, the IRS analyzed problem tax returns19 and included these data in the Evaluative Model
criteria. Taxpayers with problem tax returns are certainly potential customers of the Centers.
Nevertheless, the IRS has account data for those taxpayers who in fact visited Centers and should
include these data when trying to determine the demographics of TAC customers. More than
3 million (46 percent) of the taxpayer contacts for account assistance in Fiscal Year 2007 were
made at TACs.20 Figure 4 presents a breakdown of TAC contacts for the last 4 fiscal years.




18
   The Taxpayer Assistance Center Closure Plan Was Based on Inaccurate Data (Reference Number 2006-40-061,
dated March 2006).
19
   Defined by the IRS as tax returns filed late or not fully paid.
20
   For Fiscal Year 2007, the IRS changed the way it counted contacts. It counted the number of services provided
rather than the number of taxpayers served.
                                                                                                        Page 11
                       Inaccurate and Incomplete Data Have Adversely Affected
                          Implementation of the Taxpayer Assistance Center
                                        Geographic Footprint


                                  Figure 4: Contacts21 at the TACs
                             for Fiscal Years 2004 – 2007 (in millions)22

                                                     9
                                                     8
                                                     7
                                                     6
                                          Millions   5
                                                     4
                                                     3
                                                     2
                                                     1
                                                     0
                                                         2004     2005      2006       2007

                                  Total Contacts         7.7       7.1       6.5       7.0
                                  Accounts Contacts      2.5       2.5       2.7       3.1
                                  Forms Contacts         1.8       1.6       1.4       1.3
                                  Other Contacts         1.5       1.4       1.3       1.3
                                  Tax Law Contacts       1.4       1.2       0.7       0.8
                                  Tax Returns            0.5       0.4       0.4       0.5
                                  Prepared

                          Source: Field Assistance Office management information system reports.

The Blueprint represents the IRS’ first large-scale attempt to collect data specific to
TAC customers. However, as the IRS recognizes, the survey results do not clearly distinguish
between TAC users and non-TAC users to enable it to effectively draw conclusions about the
characteristics of individuals who use the services of a Center. The IRS plans to continue to
conduct surveys in Fiscal Year 2008. It must continue to develop data about which customers
are best served by the TAC Program to develop and deliver an effective customer service
strategy.




21
   Other Contacts include assisting taxpayers that call the TACs, date-stamping tax returns brought in by taxpayers,
helping taxpayers with general information such as addresses and directions to other IRS offices or other Federal
Government agencies, and responding to unsolicited correspondence.
22
   The Field Assistance Office’s management information system is incomplete and inaccurate; however, it is the
best data available.
                                                                                                            Page 12
                       Inaccurate and Incomplete Data Have Adversely Affected
                          Implementation of the Taxpayer Assistance Center
                                        Geographic Footprint


The IRS has yet to develop a process to identify the optimal TAC locations
In July 2005, we reported that there are no current data to support why the Centers are in their
present locations.23 They are in the same locations as when the Field Assistance Office took
ownership of the TAC Program in October 2000. Since the Field Assistance Office took
ownership, the IRS has developed two separate models but has been unable to finalize or use any
model to evaluate Center locations.
The Office of Program Evaluation and Risk Analysis has developed a dynamic program called
the Geographic Coverage Rate Model (included as part of the Evaluative Model) that can be
used to better identify the optimal Center locations.24 The Geographic Coverage Rate Model
measures the proportion of a specified population that is within a given travel time of the nearest
Center. The Geographic Coverage Rate Model can be used to determine the locations that yield
the maximum coverage rate for a given population. For example, if the IRS determines which
individuals it can most effectively serve, the characteristics of these individuals can be input to
the Geographic Coverage Rate Model. This Model will identify, by zip code, the locations at
which the Centers would provide maximum coverage to these specific taxpayers.
The Geographic Coverage Rate Model is particularly important because 119 (30 percent) of
the 401 TAC leases expire in Fiscal Years 2008 and 2009. This Model could be used to
determine, for a Center whose lease is expiring, if the current location is best and/or identify a
better one. However, Field Assistance Office management has not yet determined which
taxpayers the IRS can most effectively serve by its TAC Program. Without this, they cannot
determine where to best locate the Centers.
Field Assistance Office officials advised us that based on the availability of Office data, a
Geographic Coverage Initiative was recently launched. The initiative is designed to use
specifically focused information to develop a repeatable process that can be used by the Office to
help ensure TAC coverage for service delivery.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Develop a process that includes routine assessments of TAC operations
to ensure that the TACs are optimally located and the services provided at the TACs are the most
effective and cost efficient. Use of the Geographic Coverage Rate Model should be included in
this process.


23
   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005).
24
   Representatives from the Office of Program Evaluation and Risk Analysis performed an extensive quality review
of the programming used in the Geographic Coverage Rate Model.
                                                                                                        Page 13
                      Inaccurate and Incomplete Data Have Adversely Affected
                         Implementation of the Taxpayer Assistance Center
                                       Geographic Footprint


        Management’s Response: IRS management agreed with this recommendation. The
        Field Assistance Office will use the process developed by the Geographic Coverage
        Initiative to create a balanced footprint designed to maximize taxpayer needs and services
        provided. The Field Assistance Office will implement this process during the quarterly
        assessment of taxpayer and Federal Government value criteria.

The Internal Revenue Service Is Unable to Measure How Closing
Taxpayer Assistance Centers Might Affect Taxpayers and Compliance
In March 2006, we reported25 that the IRS could not determine the effect that Center closures
might have on taxpayer compliance. The IRS did not have the means to capture all interactions
between a TAC employee and a taxpayer to determine why the taxpayer visited a Center, what
service he or she received, and–most importantly–the effect the service or action has on the
taxpayer’s future compliance. In addition, although the IRS had management information to
determine to some degree which taxpayers visit the Centers, the information was not always
reliable.
Congress continues to remain concerned about the effect of Center closures on taxpayers. In a
Senate Report on the 2008 Budget,26 the Senate Committee on Appropriations cited concerns
about any IRS efforts to significantly reduce taxpayer services, including face-to-face services.
The Committee directed that, if the IRS proposes further reductions in taxpayer services that
involve a decrease in face-to-face service, the IRS must demonstrate that the proposed reductions
do not adversely affect compliance by taxpayers.
Although the IRS has conducted and is conducting a significant number of surveys and research,
it still does not capture all interactions between TAC employees and taxpayers and still does not
have reliable management information with which to determine all the reasons why taxpayers
visit the Centers. Until its new TAC management information system is completely installed and
all services are counted, the IRS will be unable to determine this. Additionally, the IRS still does
not have management information systems to determine the downstream effect of the services on
taxpayer compliance.
The IRS is not planning to conduct specific projects that assess the impact on compliance when
closing Centers. However, research projects are planned for Fiscal Years 2008 and 2009 to
determine the impact of taxpayer service on compliance, including the services provided at a
Center. We are making no recommendations at this time and will continue to monitor IRS
efforts in this area.



25
   The Taxpayer Assistance Center Closure Plan Was Based on Inaccurate Data (Reference Number 2006-40-061,
dated March 2006).
26
   H.R. 2829 - Financial Services and General Government Appropriations Act for Fiscal Year 2008, Division D.
                                                                                                     Page 14
                       Inaccurate and Incomplete Data Have Adversely Affected
                          Implementation of the Taxpayer Assistance Center
                                        Geographic Footprint


                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to assess the accuracy and completeness of the data compiled for use
in the IRS’ Taxpayer Assistance Center (hereafter referred to as a TAC or Center) assessment
process. To accomplish this objective, we:
I.      Determined if the IRS has data detailing the characteristics of individuals who use the
        services of a Center.
        A. Discussed with responsible IRS officials the efforts taken to identify characteristics of
           individuals who use the services of a Center.
        B. Reviewed the Taxpayer Assistance Blueprint (Blueprint) Phase 2 report to identify
           efforts taken to identify characteristics of individuals who use the services of a
           Center.
        C. Assessed the accuracy and completeness of this information by analyzing results of
           the four surveys conducted and included in the Blueprint Phase 2 report.
        D. Attempted to determine the effect on the TAC Assessment process by determining
           what types of taxpayers visited a Center during Fiscal Year 2007 with questions
           concerning their accounts.
II.     Assessed the accuracy of data used to populate the Geographic Coverage Rate Model.1
        A. Discussed with responsible individuals in the Office of Program Evaluation and Risk
           Analysis the data and methodology used to develop the Geographic Coverage Rate
           Model, including the process followed to verify the accuracy of the resulting data.
        B. Assessed the accuracy of computer programs written to perform calculations to
           populate the Geographic Coverage Rate Model.
        C. Assessed the accuracy of the data used to populate the Geographic Coverage Rate
           Model.
        D. For any inaccuracies, attempted to determine the effect on the TAC Assessment
           process.



1
  The Geographic Coverage Rate Model measures the proportion of a specified target population that is within a
given travel time of the nearest TAC. It can be used to determine the locations that yield the maximum coverage
rate for a given population.
                                                                                                         Page 15
                        Inaccurate and Incomplete Data Have Adversely Affected
                           Implementation of the Taxpayer Assistance Center
                                         Geographic Footprint


III.     Assessed the accuracy of the data used to populate the Evaluative Model.2
         A. Discussed with responsible individuals in the Taxpayer Services Program
            Management office the data obtained, as well as the process for verifying the data
            used, to populate the Evaluative Model.
         B. For each of the 41 criteria included in the Evaluative Model, assessed the accuracy of
            the data used to populate the Model for the 60 TACs that were reviewed during our
            prior audit.
         C. For any inaccuracies, attempted to determine the effect on the TAC Assessment
            process.
IV.      Determined if the IRS has in place or planned a process to assess the impact on voluntary
         compliance of closing any Centers.
         A. Discussed with responsible individuals the process by which the IRS will measure the
            impact on voluntary compliance if the IRS decides to close Centers.
         B. Assessed the accuracy and completeness of this information.




2
 The current Evaluative Model was built as part of the Blueprint initiative to develop a service delivery plan and
establish a Geographic Footprint for the TAC Program.
                                                                                                            Page 16
                  Inaccurate and Incomplete Data Have Adversely Affected
                     Implementation of the Taxpayer Assistance Center
                                   Geographic Footprint


                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Pamela DeSimone, Senior Auditor
Lynn Faulkner, Senior Auditor
Kathleen Coote, Auditor
Mary Keyes, Auditor
Joseph Butler, Information Technology Specialist




                                                                                   Page 17
                  Inaccurate and Incomplete Data Have Adversely Affected
                     Implementation of the Taxpayer Assistance Center
                                   Geographic Footprint


                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy, Commissioner, Wage and Investment Division SE:W
Chief, Agency-Wide Shared Services OS:A
Director, Office of Research, Analysis, and Statistics RAS
Director, Office of Program Evaluation and Risk Analysis RAS:O
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Taxpayer Services Performance Management Office, Wage and Investment Division
SE:W:TSPMO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Performance Improvement, Wage and Investment Division SE:W:S:P




                                                                                    Page 18
                   Inaccurate and Incomplete Data Have Adversely Affected
                      Implementation of the Taxpayer Assistance Center
                                    Geographic Footprint


                                                                             Appendix IV

                    Treasury Inspector General
               for Tax Administration Audit Reports

•   Trends in Customer Service in the Taxpayer Assistance Centers Continue to Show
    Procedural Causes for Inaccurate Answers to Tax Law Questions (Reference
    Number 2003-40-158, dated August 2003).
•   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured
    (Reference Number 2005-40-110, dated July 2005).
•   Taxpayer Service Is Improving, but Challenges Continue in Meeting Expectations
    (Reference Number 2006-40-052, dated February 2006).
•   The Taxpayer Assistance Center Closure Plan Was Based on Inaccurate Data (Reference
    Number 2006-40-061, dated March 2006).




                                                                                     Page 19
                          Inaccurate and Incomplete Data Have Adversely Affected
                             Implementation of the Taxpayer Assistance Center
                                           Geographic Footprint


                                                                                                  Appendix V

               Taxpayer and Federal Government
          Taxpayer Assistance Center Evaluation Criteria

                       Taxpayer Criteria                                     Explanation
      1       Total population coverage rate.              Percentage of population, by zip code, located
                                                           within 30 minutes of travel time from a TAC.
      2       Low-income tax return coverage rate          Percentage of low-income (based on $36,000) tax
              (adjusted gross income less than             return filing population, by zip code, located within
              $36,000).                                    30 minutes of travel time from a TAC.
      3       Low-income tax return coverage rate          Percentage of low-income (based on $35,263) tax
              (Earned Income Tax Credit cutoff for         return filing population, by zip code, located within
              Processing Year1 2006 = $35,263).            30 minutes of travel time from a TAC.
      4       Problem return2 coverage rate.               Percentage of potentially noncompliant tax return
                                                           population, by zip code, located within 30 minutes
                                                           of travel time from a TAC.
      5       Total Processing Year 2006 individual        Percentage of total Processing Year 2006
              tax return coverage rate.                    individual tax return population, by zip code,
                                                           located within 30 minutes of travel time from a
                                                           TAC.
      6       Low-education tax return coverage            Percentage of low-education (less than high
              rate.                                        school) population, by zip code, located within
                                                           30 minutes of travel time from a TAC.
      7       Wage and Investment Division total           Remove the TAC from geographic coverage
              tax return coverage rate                     analysis and recalculate overall TAC coverage for
              (Tax Year 2002).                             total population.
      8       Change in overall total Processing           Remove the TAC from geographic coverage
              Year 2006 coverage rate if eliminating       analysis and recalculate overall TAC coverage for
              a TAC.                                       total Processing Year 2006 tax returns.
      9       Change in overall low-income tax             Remove the TAC from geographic coverage
              return coverage rate if eliminating a        analysis and recalculate overall TAC coverage for
              TAC.                                         low-income tax returns.
      10      Change in overall Wage and                   Remove the TAC from geographic coverage
              Investment Division low-income total         analysis and recalculate overall TAC coverage for
              tax return coverage rate if eliminating      low-income tax returns.
              a TAC.
      11      Change in overall low-education tax          Remove the TAC from geographic coverage
              return coverage rate if eliminating a        analysis and recalculate overall TAC coverage for
              TAC.                                         low-education population.


1
    The year in which tax returns and other tax data are processed.
2
    Defined by the IRS as tax returns filed late or not fully paid.
                                                                                                           Page 20
                Inaccurate and Incomplete Data Have Adversely Affected
                   Implementation of the Taxpayer Assistance Center
                                 Geographic Footprint



            Taxpayer Criteria                                   Explanation
12   Original count of Tax Year 2004           Count by zip code of the number of Tax
     problem tax returns.                      Year 2004 problem tax returns.
13   Change in Tax Year 2004 problem tax       Remove the TAC from geographic coverage
     return coverage rate if eliminating a     analysis and recalculate overall TAC coverage for
     TAC.                                      potentially noncompliant tax returns.
14   Reduction in total population             Remove the TAC from geographic coverage
     coverage rate as a percentage of the      analysis and recalculate overall TAC coverage for
     target population if eliminating a TAC.   total population.
15   Reduction in problem tax return           Remove the TAC from geographic coverage
     coverage rate for Processing              analysis and recalculate overall TAC coverage for
     Year 2006 as a percentage of the          potentially noncompliant tax returns.
     target population if eliminating a TAC.
16   Reduction in low-income tax return        Remove the TAC from geographic coverage
     coverage rate as a percentage of the      analysis and recalculate overall TAC coverage for
     target population if eliminating a TAC.   low-income population.
17   Proximity of next closest TAC (travel     Distance to next closest TAC (travel time in
     time in minutes).                         minutes).
18   Next closest TAC name/building            Closest TAC name and building code.
     code.
19   Capacity of alternate TAC to absorb       The nearest TAC site(s) having the requisite
     displaced volume count/percentage.        capacity to absorb the total volume estimated to
                                               be migrated from a given TAC.




                                                                                            Page 21
                         Inaccurate and Incomplete Data Have Adversely Affected
                            Implementation of the Taxpayer Assistance Center
                                          Geographic Footprint



                Government Criteria                                     Explanation

    1      Lease/own.                              TAC space is leased or owned by the Federal
                                                   Government.
    2      Lease expiration.                       Lease expiration date.

    3**    TAC square feet.                        Total square footage.

    4**    TAC rent.                               Annual rent expenditure.

    5**    Rentable/usable factor.                 Rentable space is the area for which a tenant is
                                                   charged rent. Usable space is computed by
                                                   measuring the area enclosed by the finished surface
                                                   of the room side of corridors and other permanent
                                                   walls. Rentable/usable factor is computed by
                                                   dividing the rentable space by the usable space.

    6      Cost per square foot.                   Rent cost per square foot.

    7      TAC size.                               Defined as small, medium, or large based on the
                                                   number of technical employees at the TAC.
    8      Standalone TAC (yes or no).             The TAC is the only IRS function in the building.

    9**    Allocated technical Full-Time           Number of Full-Time Equivalent employees allocated
           Equivalents (the number of hours        to a given TAC in the Field Assistance Office’s
           worked divided by the maximum           allocated staffing plan.
           number of compensable hours in a
           work year).
    10**   On rolls.                               Number of employees currently employed in a TAC
                                                   (as of Fiscal Year 2007).
    11     Initial assistance representatives.     Number of initial assistance representatives currently
                                                   employed in a TAC.
    12**   Other employees.                        Number of other employees (e.g., secretaries,
                                                   supervisors, clerks) currently employed in a TAC.
    13     Technical.                              Number of technical employees currently employed
                                                   in a TAC.
    14     Retirement eligibility.                 Number of employees eligible for retirement by the
                                                   estimated TAC closure date.
    15*    Total volume per Business               Total number of contacts delivered in a given TAC
           Performance Management System.          during last full fiscal year.
    16*    Total volume per Q-Matic.3              Total number of contacts delivered in a given
                                                   TAC during last full fiscal year.




3
 An automated queuing system used to control the flow of taxpayers waiting for assistance. In most TACs, the
Q-MATIC automatically records the number of taxpayers assisted.
                                                                                                       Page 22
                        Inaccurate and Incomplete Data Have Adversely Affected
                           Implementation of the Taxpayer Assistance Center
                                         Geographic Footprint



               Government Criteria                                          Explanation

    17*    Total contacts potentially deliverable     Total contacts delivered by a given TAC during last full
           via IRS.gov.                               fiscal year that could be delivered via IRS.gov.
    18*    Percentage of total volume potentially     Percentage of TAC contacts delivered by a given
           deliverable via IRS.gov.                   TAC during last full fiscal year that could be delivered
                                                      via IRS.gov.
    19*    Total technical and initial assistance     Technical and initial assistance representative
           representative program hours               program hours divided by the number of staff hours
           expressed in Full-Time Equivalents.        that represent a Full-Time Equivalent.
    20*    Potential IRS.gov contacts per             Total contacts delivered by a given TAC during last
           technical Full-Time Equivalent.            full fiscal year that could be delivered via IRS.gov
                                                      expressed as Full-Time Equivalents.
    21*    Total filing season4 volume per            Total number of contacts delivered in a given TAC
           Business Performance Management            during a filing season.
           System.
    22**   Modernization efforts applied.             Have investments already been made in installing
                                                      the TAC Model Design5 in the given TAC (if TAC is
                                                      moving, ignore this criterion).
 Source: IRS Evaluative Model as of October 2007.
* One of the eight criteria the IRS determined contained inaccurate data.
** One of the 11 criteria we determined contained inaccurate or incomplete data.




4
  The period from January through mid-April when most individual income tax returns are filed.
5
  TAC Model Design established detailed requirements for small, medium, and large TACs. The TAC Model
Design Guide will be used as a planning and implementation tool by field facility offices to solicit appropriate
leased space for new or relocated TACs nationwide.




                                                                                                             Page 23
     Inaccurate and Incomplete Data Have Adversely Affected
        Implementation of the Taxpayer Assistance Center
                      Geographic Footprint


                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 24
Inaccurate and Incomplete Data Have Adversely Affected
   Implementation of the Taxpayer Assistance Center
                 Geographic Footprint




                                                    Page 25
Inaccurate and Incomplete Data Have Adversely Affected
   Implementation of the Taxpayer Assistance Center
                 Geographic Footprint




                                                    Page 26
Inaccurate and Incomplete Data Have Adversely Affected
   Implementation of the Taxpayer Assistance Center
                 Geographic Footprint




                                                    Page 27
Inaccurate and Incomplete Data Have Adversely Affected
   Implementation of the Taxpayer Assistance Center
                 Geographic Footprint




                                                    Page 28
Inaccurate and Incomplete Data Have Adversely Affected
   Implementation of the Taxpayer Assistance Center
                 Geographic Footprint




                                                    Page 29
